                             SOCIAL SECURITY
                                   May 18, 2007

MEMORANDUM FOR THE HONORABLE GREGORY H. FRIEDMAN
                   INSPECTOR GENERAL
                   DEPARTMENT OF ENERGY

SUBJECT:      Federal Employees' Compensation Act: A Nationwide Review of Federal
              Employees Who Received Compensation for Lost Wages for Periods
              When “Earned Wages” Were Reported on the Social Security
              Administration’s Master Earnings File (A-15-06-16037)


Federal Employees’ Compensation Act (FECA) recipients who have wage postings
during the same period for which they receive FECA payments raise concerns about
the propriety of such payments. The widespread concern expressed by members of
the President’s Council on Integrity and Efficiency prompted our Office to coordinate
with the Department of Labor (DOL) Office of Inspector General (OIG) to identify the
extent to which Federal Employees were receiving FECA payments while earning
wages. Specifically, we agreed to perform an evaluation to identify the number of
FECA recipients who received compensation for lost wages for periods when “earned
wages” were reported on the Social Security Administration’s (SSA) Master Earnings
File (MEF). In December 2005, SSA/OIG met with DOL Office of Workers’
Compensation Programs (OWCP) officials to discuss our objectives and use of OWCP
data. With assistance from DOL/OIG, we obtained Calendar Year 2004 OWCP data on
FECA recipients. We appreciate the cooperation and support provided by DOL/OIG.
We provided a draft copy of this report to the DOL/OIG for comment. We appreciate
their contribution and have incorporated comments as appropriate. This evaluation
could not have been completed without DOL/OIG’s support.

The attached report provides the results of our comparison of FECA data to various
SSA databases. This evaluation was conducted for research and statistical purposes.
As such, SSA/OIG will not take any action that may affect the rights, benefits or
privileges of specific individuals identified during the course of our evaluation.

If you wish to discuss the final report, please call me or have your staff contact
Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                 Patrick P. O’Carroll, Jr.

Attachment


           SOCIAL SECURITY ADMINISTRATION           BALTIMORE MD 21235-0001
     Report to The Honorable Gregory H. Friedman
                      Inspector General
                   Department of Energy


  Federal Employees’ Compensation Act: A Nationwide
Review of Federal Employees Who Received Compensation
 for Lost Wages for Periods When “Earned Wages” Were
 Reported on the Social Security Administration’s Master
                      Earnings File




                Social Security Administration
                Office of the Inspector General
                         May 18, 2007



      SOCIAL SECURITY ADMINISTRATION   BALTIMORE MD 21235-0001
                                                                                Introduction
Objective                Our objective was to determine the number of Federal Employees’
                         Compensation Act (FECA) recipients, 1 classified as not having a
                         wage earnings capacity or whose wage earnings capacity had not yet
                         been determined, (OWCP case status codes PN or PR,
                         respectively), 2 that received compensation for lost wages when
                         “earned wages” 3 were reported on the Social Security Administration’s
                         (SSA) Master Earnings File (MEF). 4 This evaluation was conducted
                         for research and statistical purposes. As such, our office will not take
                         any action that might affect the rights, benefits or privileges of specific
                         individuals identified during the course of the evaluation.


Background               FECA (5 United States Code (U.S.C.) § 8101, et seq.) provides
                         income and medical cost protection to covered Federal civilian
                         employees injured on the job, employees who have incurred a work-
                         related injury or occupational disease and beneficiaries of employees
                         whose death is attributable to a job-related injury or occupational
                         disease. It provides payment as compensation for lost wages,
                         monetary awards for medical care, vocational rehabilitation, and
                         survivor’s compensation. FECA is administered by the Office of
                         Workers’ Compensation Programs (OWCP), within the U.S.
                         Department of Labor’s (DOL) Employment Standards Administration.

                         Federal agencies are responsible for continuing an employee’s
                         regular wages, without charging annual or sick leave for up to 45 days
                         while the employee is recovering from a FECA-covered injury or
                         disease. When the 45-day period lapses, DOL provides
                         compensation for lost wages and medical benefits.



1
 A recipient may have more than one FECA case (denoted by a case number within the Department of
Labor’s Case Management System) receiving compensation for lost wages, monetary awards for medical
care, vocational rehabilitation, survivor’s compensation or other type of compensation payment.
2
  PN is defined as entitled to payment on the periodic roll; formally determined to have no wage earnings
capacity or reemployment capacity for indefinite future. PR is defined as entitled to payment on the periodic
roll; reemployment or earnings capacity has not yet been determined.
3
 We define earned wages to include regular wages or tips reported on Internal Revenue Service (IRS)
Form W-2 or net self-employment earnings reported as net profit or loss from IRS Schedule C line
31 multiplied by the applicable Federal Insurance Contributions Act (FICA) percent.
4
  The MEF, formally known as the Earnings Recording and Self-Employment Income System, Social Security
Administration/Office of Systems, (SSA/OS), 60-0059, contains identification, wage, and earnings information
for Social Security numberholders. 71 Federal Register (FR) 1796, 1819-1820 (Jan. 11, 2006).


                                                       1
                            In Federal Fiscal Years (FFY) 2004 and 2005, 5 DOL reported
                            approximately $2.4 and $2.5 billion, respectively, in compensation for
                            lost wages and medical benefits for approximately 163,000 FECA
                            recipients. Approximately, 60,000 of the 163,000 recipients were on
                                               6
                            the periodic roll.

                            The United States Postal Service (USPS) pays more in FECA costs
                            than any other Federal agency. From July 1, 2003 to June 30, 2004, 7
                            USPS paid approximately $852 million dollars in FECA costs. During
                            this period the Departments of the Navy and Army paid the second
                            and third highest amount in FECA costs, paying approximately
                            $245 and $177 million dollars, respectively. See Appendix D which
                            details 18 Federal agencies with Federal workers compensation costs
                            in CBY 2004.
  Scope &
Methodology                 The DOL/OIG assisted in providing two data files 8 containing FECA
                            recipient case data, the case management file and the CY 2004
                            compensation file. The source of the files is the Office of Workers
                            Compensation Programs (OWCP). The case management file
                            included recipient information such as name, case number, Social
                            Security number (SSN), date of injury, etc. The CY 2004
                            compensation file contained compensation information for lost wages,
                            monetary awards for medical care, vocational rehabilitation, or
                            survivor’s compensation and other compensation paid to periodic roll
                            recipients in CY 2004.

                            These files were merged to obtain a complete record for each FECA
                            recipient for CY 2004 and yielded a total of 57,268 FECA recipient
                            cases. This merged file was compared against SSA’s MEF. The
                            57,268 recipient cases represented 56,643 unique SSNs. Using the
                            merged file, we determined 26,057 of 57,268 FECA recipient cases
                            were classified by OWCP as PN or PR for the entire CY 2004.




  5
      Labor Department Federal Budget Appendix for Fiscal Year 2006.
  6
    The periodic roll is compensation for wage loss reserved for cases that involve clearly defined and well
  established long-term disability, early in the life of the case. Periodic roll payments may be made in both
  traumatic injury and occupational disease cases. Recipient cases that are periodic roll cases are annotated
  as Roll Type “P” in DOL’s Automated Compensation Payment System (ACPS).

  7
      July 1, 2003 to June 30, 2004 represents what is referred to as Charge Back Year (CBY) 2004.
  8
   The two data files provided were extracts of the National Case Management File (NCMF) and the
  Automated Compensation Payment System (ACPS).


                                                         2
                             The Privacy Act of 1974, as amended, places limitations on the use of
                             records. According to the Privacy Act, “…no record which is
                             contained in a system of records may be disclosed to a recipient
                             agency or non-Federal agency for use in a computer matching
                             program except pursuant to a written agreement between the source
                             agency and the recipient agency or non-Federal agency....” 9
                             However, the term “matching program” does not include “…matches
                             performed to support any research or statistical project, the specific
                             data of which may not be used to make decisions concerning the
                                                                                      10
                             rights, benefits, or privileges of specific individuals.” This applies to
                             our computerized comparison of data, which was performed for
                             research and statistical purposes only. See Appendix B - Scope and
                             Methodology.




9
    5 U.S.C. § 552a(o)(1).
10
     5 U.S.C. § 552a(a)(8)(B)(ii).


                                                      3
                                                      Results of Evaluation
                        We determined 1,795 out of 26,057 individuals (6.9 percent) earned
                        wages and received compensation for lost wages in CY 2004. These
                        individuals were classified by OWCP as long-term disabled recipients
                        who have no wage earnings capacity or reemployment potential for
                        the indefinite future; or, their reemployment or earnings capacity had
                        not yet been determined. The risk of improper compensation for lost
                        wages increases when a recipient who is considered to have a long-
                        term disability without wage earnings capacity then earns wages.
                        Although 1,795 individuals were identified, we did not review their
                        individual case files to determine whether improper payments
                        occurred. 11

                        DOL reported that a possible reason individuals without an earnings
                        capacity or an undetermined earnings capacity are possibly earning
                        wages was because:

                                …Claims Examiners are not consistently following up
                                                                               12
                                with claimants to ensure that a Form CA-1032 is
                                received annually for each claimant, as applicable;
                                however, payments continued to be made to non-
                                responsive claimants. 13

                        The total amount of compensation for lost wages paid to these
                        individuals in CY 2004 was $48,751,751. The total amount of wages
                        earned by these individuals in CY 2004 was $12,607,480. 14 The
                        wages ranged from about $100 to $115,502. 15 See Chart 1.

11
  Use and disclosure of wage and earnings information is regulated under the Internal Revenue Code,
26 U.S.C. § 6103. DOL is required to obtain consent from FECA recipients for the disclosure of wage and
earnings information maintained by SSA for FECA income verification purposes. See 20 C.F.R. § 10.527.
12
   Form CA-1032 is an annual request by DOL for a FECA recipient to disclose: 1) all employment for which
recipients received a salary, wages, income, sales commissions, piecework, or payment of any kind. This
includes military forces of the United States, including the National Guard, Reserve component, or other
affiliates. Also, recipients must report the value of things such as housing, meals, clothing, and
reimbursement expenses that were received as part of employment; 2) self-employment or involvement in
business enterprises; and 3) ownership interest in any business enterprise.
13
 U.S. DOL – Office of Inspector General - Office of Audit, Service Auditors Report on the Integrated Federal
Employees Compensation System (22-06-011-04-431) dated September 29, 2006.
14
  This represents amounts earned by recipients stated in the “earnings” field of the Master Earnings File
(MEF). The earnings are from regular wages reported on IRS Form W-2 and self-employment activities.
15
  Of the 1,795 recipients noted in this comparison, 181 earned wages that were less than $100. These
wages ranged from $.38 to $99.


                                                      4
                                    CHART 1 - Wages Earned by Recipients

                         Total      .38 -   $501 -        $10,001 -   $25,001 -   $50,001 -   $100,001
                       Recipients   $500    $10,000       $25,000     $50,000     $100,000    and Greater

                          1795       538        871         247         111          27            1

                         We sampled 78 of the 1,795 recipients to trace their name, address,
                         employer’s identification and CY 2004 earnings to their Internal
                         Revenue Service Form W-2 to gain assurance that the named
                         recipient actually earned the CY 2004 wages stated on the MEF. The
                         name, address, employer’s identification and CY 2004 earnings
                         agreed to the W-2’s of the 78 recipients. 16

                         See Appendices E and F for details of Federal agencies of FECA
                         recipients who earned wages and received compensation for lost
                         wages while classified by OWCP as long-term disabled recipients who
                         have no wage earnings capacity; or, reemployment capacity or
                         reemployment or earnings capacity has not yet been determined. The
                         majority of these recipients’ earnings were from regular wages (see
                         Appendix F).




16
     See sampling methodology at appendix B-3


                                                      5
                          Comparisons to Other SSA Data Bases

                          During our evaluation, we performed five additional analyses using
                          the data provided by DOL OWCP. These analyses or comparisons
                          identified:

                              1. recipients with a death indicator or annotated date of death on
                                                17                          18
                                 the Numident, Death Master File (DMF), or Master
                                                             19
                                 Beneficiary Record (MBR), who received potential excess
                                 payments 20 in CY 2004;

                              2. recipients with invalid SSNs who received FECA payments in
                                 CY 2004;

                              3. recipients at or above full retirement age (FRA) 21 who received
                                 compensation payments in CY 2004;

                              4. recipients with a closed case status code prior to CY 2004 who
                                 received compensation payments in CY 2004; and

                              5. the most common injuries sustained by the recipients noted in
                                 our MEF comparison.




17
   The Numident, which is an electronic component of the SSA record system, Master Files of Social Security
numberholders and SSN Applications, Social Security Administration/Office of Systems (SSA/OS), 60/0058,
is a record of identifying information (such as name, date of birth, date of death, mother's maiden name, etc.)
provided on SSN applications, and other pertinent enumeration information. 71 Federal Register (FR) 1796,
1815-1816 (Jan. 11, 2006).
18
     The DMF contains death information reported by various sources.
19
  The MBR contains information about each claimant who has applied for retirement, survivors, or disability
benefits or who is to be enrolled in the Hospital Insurance or Supplementary Medical Insurance program. For
example, the MBR contains claimant's name, date of birth, gender, etc. MBR, SSA/Office of Retirement and
Survivors Insurance Systems (ORSIS), 60-0090. 71 FR 1796, 1826-1827 (Jan. 11, 2006).
20
   We define potential “excess payments” as compensation for lost wages, monetary awards for medical
care, vocational rehabilitation, or survivor’s compensation and other compensation payments paid to
individuals after their annotated date of death. The term “excess payments” was defined by the DOL/OIG in
its 1998 audit report, FECA Excess Payment Recovery Procedures Need Improvement, No. 03-98-003-04-
431 (available at www.oig.dol.gov/public/reports/oa/1998/03-048-003-04-431s.htm), as compensation benefit
payments issued subsequent to a FECA recipient's death.
21
  FRA is the age at which unreduced retirement (old-age), spouses, or widow(er)'s benefits may be paid.
FRA for retirement or spouse's benefits is age 65 (if born 9/1/1938 and earlier. This would make the recipient
65 at 1/1/2004) (SSA POMS RS 00615.003 – Full Retirement Age). For our evaluation we only reviewed
recipients with a date of birth of 9/1/1938 and earlier.


                                                       6
                        The results of these additional analyses are as follows:

                        Death Indicator

                        Two hundred forty four recipients had a death indicator or an
                        annotated date of death on their Numident, DMF or MBR prior to
                        CY 2004 and received potential excess payments in CY 2004.

                        We did not verify whether these recipients were deceased. However,
                        SSA verifies the death of Social Security beneficiaries by either
                        obtaining a death certificate, or a statement of death by a funeral
                        director. Also, verification is performed through receiving an
                        Electronic Death Registration of state death records, death records
                        from the Department of Veterans Affairs and the Centers for Medicare
                        and Medicaid Services. A determination of a recipient's death status
                        is performed to ensure that all Social Security benefits to deceased
                        beneficiaries are terminated when appropriate.

                        It is DOL’s practice that:

                               ...upon notification of the death of a FECA claimant,
                               the district office is to immediately terminate
                               compensation        benefits   in    the    Automated
                                                                        22
                               Compensation Payment System (ACPS).

                        However, DOL indicated, a possible reason why recipients may be
                        receiving excess payments after their date of death could be:

                               …excess payments were made because FECA
                                     23
                               [DOL] had not been timely notified of a claimant's
                               death, or upon notification of a claimant's death, FECA
                               failed to promptly terminate compensation benefit
                               payments…. Therefore, ...FECA's failure to promptly
                               terminate compensation benefit payments resulted in
                               additional excess payments being made. 24

                        The total amount of excess payments made to these individuals was
                        $1,940,729. The payments ranged from $183 to $146,490. See
                        Appendix G for detail of Federal agencies recipients with a date of

22
 DOL/OIG in its 1998 audit report, FECA Excess Payment Recovery Procedures Need Improvement,
No. 03-98-003-04-431.
23
 In this quote “FECA” means the U.S. Department of Labor’s Office of Workers’ Compensation Programs,
Employment Standards Administration.
24
     See footnote 21.


                                                     7
                      death annotated on their Numident, DMF, or MBR, who received
                      potential excess payments.

                      Invalid and Incorrect SSNs
                      Of the 57,268 recipient cases, we noted 34 recipient cases with
                      invalid SSNs and approximately 1,000 cases with incorrect SSNs.

                      Invalid SSNs are SSNs that were never issued by SSA. They can be
                      a result of input errors, or Claim Examiners entering invalid SSNs to
                      facilitate claims processing when an individual’s SSN is not available.
                      An example of an invalid SSN entered to facilitate a claim would be
                      123-45-6789. Total compensation paid to the 34 invalid SSNs in CY
                      2004 was $516,625.

                      Incorrect SSNs represent recipients whose name (as reported by
                      DOL) is associated with an SSN that does not match the name. Total
                      compensation paid to the 1,000 incorrect SSNs in CY 2004 was
                      $20,141,875.

                      In a 2000 audit report, DOL reported instances of incorrect SSNs:

                              Almost 5 percent of the Social Security numbers
                              (SSNs) in our sample taken from OWCP’s benefit
                              payment system were incorrect. 25

                      The total amount of compensation paid to recipients with invalid or
                      improper SSNs in CY 2004 was $20,658,500. The payments ranged
                      from $46 to $98,290. Invalid and incorrect SSNs pose a risk that
                      individuals could receive benefit payments under a false identity.

                      Full Retirement Age

                      We determined 15,439 individuals were at FRA and received
                      compensation for lost wages, monetary awards for medical care,
                      vocational rehabilitation, or survivor’s compensation and other
                      compensation payments in CY 2004. Total FECA compensation paid
                      to these recipients in CY 2004 was $400,662,356. Of these
                      individuals, 11,849 (76.7 percent) received SSA Title II retirement
                      benefits in CY 2004. Total SSA Title II retirement benefits paid to
                      these individuals in CY 2004 was $91,680,044. Receipt of Social
                      Security benefits is an indicator that FECA recipients may be retired.


25
 DOL/OIG in its 2000 audit report, Automated Crossmatches with SSA Would Result in Program Savings,
No. 03-00-008-004-431.


                                                  8
                        Presently, there is no DOL policy restricting or reducing FECA
                        compensation upon the attainment of retirement age.

                        Federal agencies have argued for many years that once FECA
                        beneficiaries reach what would have been their normal retirement
                        eligibility point, those persons should be switched to the retirement
                        rolls. FECA-related costs are charged back to the employing agency,
                        limiting the money it has available for other purposes, where annuity
                        costs are borne by the Federal retirement trust fund. FECA benefits
                        typically exceed Federal retirement benefits because they are tax
                        free, which constitutes an incentive for individuals to remain on FECA
                        past when they would otherwise have retired. 26

                        Three thousand five hundred ninety recipients (23 percent) never
                        applied for Title II retirement benefits; therefore no MBR will exist for
                                           27
                        these recipients.

                        Other Information

                        Closed Cases

                        Two hundred seventy three recipient cases that were closed prior to
                        CY 2004 received FECA payments in CY 2004. The dates that the
                        cases were closed ranged from CY 1980 to CY 2003. The total
                        amount of FECA compensation paid to these recipients was
                        $2,164,746. The payments ranged from $7 to $45,458. According to
                        DOL’s definition of a closed case, all entitled benefits have been paid
                        and no further payments are anticipated, therefore, no payment
                        should be made to closed cases. Because these recipients’ cases
                        are closed, we cannot determine the type of payment made to them in
                        CY 2004.

                        Injury Type

                        The most common injuries sustained by the 1,795 recipients noted in
                        our MEF comparison were back injuries (32 percent). See Appendix
                        H for a detailed breakdown of injuries sustained by 1,795 FECA
                        recipients noted in our MEF comparison.



26
  This wording was derived from FedWeek magazine (online internet article); “Retirement Provision a Sore
Point” posted March 7, 2007, accessed March 22, 2007.
27
  Some recipients may not be eligible for Title II retirement benefits because they are eligible for pension
benefits under the Civil Service Retirement System therefore they may have never applied for SSA (Title II)
benefits.


                                                      9
                                                                               Conclusion
                        Based on the results of our analyses, the potential exists for a
                        substantial amount of improper payments to occur and continue to be
                        paid if Federal agencies do not implement corrective action to improve
                        oversight and monitoring of their FECA programs. Unfortunately,
                        because of restrictions of the Computer Matching Privacy Protection
                        Act of 1988 (CMPPA) 28 we cannot communicate the identities of the
                        individuals noted in our comparisons. DOL/OIG stated, “DOL
                        recognizes a legislative change is needed because the Privacy Act of
                        1974 prohibits agencies, including SSA, from disclosing earnings
                        without claimant’s authorization. DOL’s FY 2008 budget request
                        includes proposed legislative reform of the FECA.” We believe the
                        OIGs should work with their respective agencies to resolve the issues
                        identified in this report.




28
  The CMPPA amended the Privacy Act by describing the manner in which computer matching involving
Federal agencies could be performed and by adding certain protections for individuals applying for and
receiving Federal benefits. 100 P.L. 503, 102 Stat. 2507 (1988) (see fn. 8 and 9, supra, and accompanying
text).


                                                    10
                                                  Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Data Reliability, Internal Controls, and Review Standards
APPENDIX D – Participating Agencies – Federal Workers Compensation Costs for
             CBY 2004
APPENDIX E – Recipients Without or an Undetermined Wage Earnings Capacity Who
             Earned Wages
APPENDIX F – Types of Earnings Breakdown for the 1,795 Recipients Noted in the
             Master Earnings File Comparison
APPENDIX G – Recipients Annotated as Deceased Prior to CY 2004 That Received
             Potential Excess Payments
APPENDIX H – Frequency of Injury by Body Part for the 1,795 Recipients Noted in the
             Master Earnings File Comparison
                                                           Appendix A

Acronyms
ACPS       Automated Compensation Payment System
CBY        Charge Back Year
CMPPA      Computer Matching Privacy Protection Act
CY         Calendar Year
DMF        Death Master File
DOL        Department of Labor
FECA       Federal Employees’ Compensation Act
FFY        Federal Fiscal Year
FR         Federal Register
FRA        Full Retirement Age
IRS        Internal Revenue Service
MEF        Master Earnings File
MBR        Master Beneficiary Record
NCMF       National Case Management File
Numident   Numident Master File
OIG        Office of Inspector General
ORSIS      Office of Retirement and Survivors Insurance Systems
OS         Office of Systems
OSR        Office of System Requirements
OWCP       Office of Workers’ Compensation Programs
SSA        Social Security Administration
SSN        Social Security Number
U.S.C.     United States Code
USPS       United States Postal Service
                                                                                    Appendix B

Scope and Methodology
The Department of Labor (DOL), Office of Inspector General assisted in providing two
data files from the Office of Workers’ Compensation Programs (OWCP) containing
Federal Employees’ Compensation Act (FECA) recipient data. The data files included
case management and Calendar Year (CY) 2004 compensation payment information.
The FECA recipients were compared to Social Security Administration’s (SSA)
Numident Master File (Numident), 1 Death Master File (DMF), 2 Master Earnings File
(MEF), 3 and Master Beneficiary Record (MBR). 4 A description of the data files, and
methodologies used to perform our comparisons and analyses follow:

Data Files

      Case Management File 5 – This file contains general case information for all active
      and inactive FECA recipients. The types of information included are the recipient’s
      name, address, Social Security number (SSN), type of injury, date of injury, etc.
      There are approximately 1.1 million recipient cases included in the file. These
                                           6
      cases represent 766,953 individuals.




1
 The Numident, which is an electronic component of the SSA record system, Master Files of Social
Security numberholders and SSN Applications, Social Security Administration/Office of Systems
(SSA/OS), 60/0058, is a record of identifying information (such as name, date of birth, date of death,
mother's maiden name, etc.) provided on SSN applications, and other pertinent enumeration information.
71 Federal Register (FR) 1796, 1815-1816 (Jan. 11, 2006).
2
    The DMF contains death information reported by various sources.
3
  The MEF, formally known as the Earnings Recording and Self-Employment Income System, Social
Security Administration/Office of Systems, SSA/OS, 60-0059, contains identification, wage, and earnings
information for Social Security numberholders. 71 FR 1796, 1819-1820 (Jan. 11, 2006).
4
 The MBR contains information about each claimant who has applied for retirement, survivors, or
disability benefits or who is to be enrolled in the Hospital Insurance or Supplementary Medical Insurance
program. For example, the MBR contains claimant's name, date of birth, gender, etc. MBR, SSA/Office
of Retirement and Survivors Insurance Systems, 60-0090. 71 FR 1796, 1826-1827 (Jan. 11, 2006).
5
 This case information was extracted from DOL’s National Case Management File (NCMF). This file was
updated as of June 30, 2005.
6
    An individual could have more than one case.


                                                   B-1
      CY 2004 Compensation File 7 - This file contains CY 2004 compensation payment
      data for 59,163 recipient cases on the periodic roll. 8

We merged the Case Management and CY 2004 Compensation files. We combined
these files to obtain a complete FECA record for each recipient for CY 2004. During
this process we encountered the following problems:

      1. Case numbers that could not be matched between the case management file
         and the compensation file. There were 858 of these instances.

      2. SSNs that were 1) invalid, never issued by SSA; or 2) incorrect, representing
         recipients whose name (as reported by DOL) is associated with an SSN that
         does not match the name. There were 34 recipient cases with invalid SSNs and
         approximately 1,000 cases with incorrect SSNs.

As a result, we obtained CY 2004 case management and compensation payment
information for 57,268 recipient cases on the periodic roll. These cases represent
56,643 individuals. Using the merged file, we determined 26,057 of 57,268 FECA
recipient cases were classified by the OWCP as PN or PR 9 for the entire CY 2004.

MEF Comparison

We compared 26,057 FECA recipient cases (which represent 25,865 individuals)
included in the merged file and classified by OWCP as PN and PR for the entire
CY 2004 to SSA’s MEF to determine if there were recipients who earned wages and
received compensation for lost wages.

DMF Comparison

We compared 56,643 FECA individuals included in the compensation file to SSA’s
Numident, DMF, and MBR to determine if they had a death indicator or annotated date
of death prior to CY 2004.




7
 This compensation information was extracted from DOL’s Automated Compensation Payment System
(ACPS).
8
  The periodic roll is compensation for wage loss reserved for cases that involve clearly defined and well
established long-term disability, early in the life of the case. Periodic roll payments may be made in both
traumatic injury and occupational disease cases. These recipients are annotated in the ACPS file as Roll
Type “P”, denoting the recipient is on the periodic roll. The case status codes of the recipients cases
provided to us by OWCP with the assistance of DOL/OIG were UD, MC, DR, PR, PS, PN, PW, DE, ON,
OP, C1, C3, C4, C5, RT, and CL.
9
    Of the 26,057, there were 11,171 PNs (43 percent) and 14,886 PRs (57 percent).


                                                    B-2
Numident Comparison

We compared the SSNs of 56,643 individuals included in the CY 2004 compensation
file to SSAs Numident to determine if the individuals’ SSNs were valid and correct.

Recipients at Full Retirement Age

We extracted recipient cases that were at or above full retirement age (FRA) 10 from the
merged file of 56,643 recipient cases. The basis of our extraction was to select
recipients born on or before September 1, 1938.

Closed Cases

From the total population of 57,268 recipient cases contained on the compensation file
we extracted recipients with a closed case status code 11 dated prior to CY 2004.

Frequency of Injuries

We counted the type of injury codes annotated by DOL for the 1,795 recipients noted in
our MEF comparison. We then sorted the codes and categorized the injuries into
seven categories: Back, Arms, Legs, Injury Other, Head, Middle Body, and Internal
Organs.

Sampling Methodology

To gain assurance that the 1,795 recipients noted in our MEF comparison actually
earned wages in CY 2004, we sampled 50 recipients from a population of 1,229 who
earned between $501 and $50,000. We also reviewed all 28 recipients who earned
greater than $50,000. For these 78 recipients, we traced their names, addresses, and
CY 2004 earnings to their Internal Revenue Service Form W-2.




10
  FRA is the age at which unreduced retirement (old-age), spouses, or widow(er)'s benefits may be paid.
FRA for retirement or spouse's benefits is age 65 (if born 9/1/1938 and earlier would make the recipient
65 at 1/1/2004) (SSA POMS RS 00615.003 – Full Retirement Age). For our evaluation we only reviewed
recipients with a date of birth of 9/1/1938 and earlier.
11
   The status codes for closed cases are C1, C2, C3, C4, C5, CL and RT. OWCP defines these codes as
follows: C1 – Accepted. No further payments anticipated. No time lost from work; C2 – Accepted. No
further payments anticipated. Time lost covered by leave. Leave not repurchased; C3 – Benefits denied;
C4 – Entitled to continuation of pay accepted. Pay was continued for time lost from work. No further
payments anticipated; C5 – Previously accepted for benefits. All benefits paid; CL – Administrative
closure, and RT – Retired or waiting for retirement.


                                                  B-3
                                                                                    Appendix C

Data Reliability, Internal Controls and Review
Standards
We determined the computer-processed data to be sufficiently reliable for its intended
use. We tested the Social Security number (SSN) data element included in the Office
of Workers’ Compensation Programs data files obtained with the assistance of the U.S.
Department of Labor (DOL), Office of Inspector General (OIG). The test performed
determined the accuracy, and validity of the SSNs. We did not review recipient case
files to determine if any additional Federal Employees’ Compensation Act data provided
by the DOL’s OIG was accurate, complete and valid.

The data elements obtained from the Numident Master File (Numident), 1 Death Master
File (DMF), 2 Master Earnings File (MEF), 3 and Master Beneficiary Record (MBR) 4 used
for our comparisons were sufficiently reliable. Any data limitations were minor and
should not lead to an incorrect or unintentional message.

We did not assess individual Federal agencies internal controls used to administer its
FECA program. We performed our fieldwork from September 2006 through February
2007. Our evaluation was conducted in accordance with the Quality Standards for
Inspections issued by the President’s Council on Integrity and Efficiency.




1
 The Numident, which is an electronic component of the SSA record system, Master Files of Social
Security numberholders and SSN Applications, Social Security Administration/Office of Systems
(SSA/OS), 60/0058, is a record of identifying information (such as name, date of birth, date of death,
mother's maiden name, etc.) provided on SSN applications, and other pertinent enumeration information.
71 FR 1796, 1815-1816 (Jan. 11, 2006).
2
    The DMF contains death information reported by various sources.
3
  The MEF, formally known as the Earnings Recording and Self-Employment Income System, Social
Security Administration/Office of Systems, SSA/OS, 60-0059, contains identification, wage, and earnings
information for Social Security numberholders. 71 Federal Register (FR) 1796, 1819-1820
(Jan. 11, 2006).
4
 The MBR contains information about each claimant who has applied for retirement, survivors, or
disability benefits or who is to be enrolled in the Hospital Insurance or Supplementary Medical Insurance
program. For example, the MBR contains claimant's name, date of birth, gender, etc. MBR, SSA/Office
of Retirement and Survivors Insurance Systems, 60-0090. 71 FR 1796, 1826-1827 (Jan. 11, 2006).
                                                                                 Appendix D

Participating Agencies - Federal Workers
Compensation Costs for Charge Back Year 2004

                                              Federal Workers
                                          Compensation Costs Paid
                                            in Charge Back Year                 Number of
            Agency                              (CBY) 2004(1)                   Employees
United States Postal Service                     852 Million                        790,000
Department of the Navy                           245 Million                        176,768
Department of the Army                           177 Million                        202,357
Department of Veterans Affairs                   155 Million                        237,384
Department of the Air Force                      129 Million                        164,178
Homeland Security TSA                            121 Million                         50,000
Department of Transportation                      92 Million                         55,000
Department of Justice                             74 Million                        105,000
Department of Defense                             63 Million                        700,000
Tennessee Valley Authority                        58 Million                         13,000
Department of Interior                            57 Million                         70,500
Social Security Administration                    23 Million                         64,400
Department of Labor                               19 Million                         17,000
General Services Administration                   15 Million                         12,579
Department of Commerce                            14 Million                         35,000
Peace Corps (2)                                   11 Million                          8,000
Department of Housing and
Urban Development                                     8 Million                         10,000
Railroad Retirement Board                             142,000                            1,000

Source: U.S. Department of Labor
Note
(1) Charge Back Year 2004 represents the time period of July 1, 2003 through June 30, 2004.
(2) The 8,000 stated as “Number of Employees” actually represent volunteers for the Peace Corps.
                                                                                      Appendix E

   Recipients Without or an Undetermined Wage
   Earnings Capacity Who Earned Wages

                                                               Recipients Without Wage
                                                              Earnings Capacity or Wage         Total Paid for
                                                              Earnings Capacity Has Not        Compensation
                                                                Been Determined Who            for Lost Wages
       Agency                                                       Earned Wages                 in CY 2004
  1    UNITED STATES POSTAL SERVICE                                      876                        $22,102,148
  2    DEPARTMENT OF VETERANS AFFAIRS                                    117                         $3,082,919
  3    DEPARTMENT OF HOMELAND SECURITY                                   107                         $2,971,450
  4    DEPARTMENT OF THE ARMY                                            106                         $2,792,253
  5    DEPARTMENT OF THE NAVY                                            106                         $2,633,747
  6    DEPARTMENT OF JUSTICE                                              76                         $3,360,884
  7    DEPARTMENT OF THE AIR FORCE                                        58                         $1,611,207
  8    DEPARTMENT OF TREASURY                                             51                         $1,556,438
  9    DEPARTMENT OF INTERIOR                                             42                         $1,060,828
 10    DEPARTMENT OF AGRICULTURE                                          39                           $912,878
 11    DEPARTMENT OF DEFENSE                                              34                           $934,905
       DEPARTMENT OF HEALTH and HUMAN
 12    SERVICES                                                             26                         $762,727
 13    SOCIAL SECURITY ADMINISTRATION                                       21                         $525,730
 14    DEPARTMENT OF TRANSPORTATION                                         21                       $1,089,404
 15    GENERAL SERVICES ADMINISTRATION                                      19                         $654,144
 16    DEPARTMENT OF COMMERCE                                               16                         $230,094
 17    PEACE CORPS                                                          13                         $222,000
 18    SMITHSONIAN INSTITUTION                                               8                         $204,962
 19    GOVERNMENT PRINTING OFFICE                                            8                         $267,712
 20    ARCHITECT OF THE CAPITOL                                              7                         $197,549
 21    FEDERAL JUDICIARY                                                     6                         $249,171
 22    TENNESSEE VALLEY AUTHORITY                                            6                         $213,382
 23    DEPARTMENT OF LABOR                                                   5                         $179,473
 24    ENVIRONMENTAL PROTECTION AGENCY                                       4                         $210,025
       DEPARTMENT OF HOUSING AND URBAN
 25    DEVELOPMENT                                                          4                          $145,611
 26    AGENCY NO LONGER EXISTS                                              3                          $119,765
 27    OTHER AGENCIES (1)                                                  16                          $460,342
       Total                                                              1795                      $48,751,751

Note
(1) This line represents 13 other Federal agencies who had either one or two recipients without wage earnings
    capacity or wage earnings capacity has not been determined and earned wages.
                                                 Appendix F

Types of Earnings Breakdown for the
1,795 Recipients Noted in the Master Earnings
File Comparison



          Self-Employment Tips
                7%        1%




                                                  Regular Wages
                                                  Self-Employment
                                                  Tips




                                 Regular Wages
                                      92%
                                                          Appendix G

Recipients Annotated as Deceased Prior to
Calendar Year 2004 that Received Potential
Excess Payments
                                                        Total Compensation
                                          Recipients    for Lost Wages Paid
                                         Annotated as       in CY 2004 to
                                        Deceased That         Recipients
                                        Received FECA       Annotated as
      Agency                            Compensation          Deceased
  1   UNITED STATES POSTAL SERVICE            54                    $448,810
  2   DEPARTMENT OF THE NAVY                  44                    $348,107
  3   DEPARTMENT OF THE ARMY                  28                    $215,307
  4   AGENCY NO LONGER EXISTS                  5                    $182,230
  5   DEPARTMENT OF VETERANS AFFAIRS          23                    $124,300
  6   DEPARTMENT OF THE AIR FORCE             14                     $90,695
  7   DEPARTMENT OF STATE                      2                     $68,796
  8   DEPARTMENT OF TRANSPORTATION             8                     $60,574
  9   DEPARTMENT OF AGRICULTURE               10                     $54,484
 10   DEPARTMENT OF INTERIOR                   9                     $44,323
 11   GENERAL SERVICES ADMINISTRATION          4                     $44,244
 12   TENNESSEE VALLEY AUTHORITY               9                     $42,182
 13   DEPARTMENT OF COMMERCE                   4                     $40,751
 14   DEPARTMENT OF HOMELAND SECURITY          7                     $36,789
 15   SOCIAL SECURITY ADMINISTRATION           2                     $33,014
 16   DEPARTMENT OF DEFENSE                    4                     $28,653
      DEPARTMENT OF HEALTH AND HUMAN
 17   SERVICES                               5                      $16,402
 18   FEDERAL HOME LOAN BANK BOARD           1                      $16,143
 19   DEPARTMENT OF JUSTICE                  2                      $12,640
 20   PEACE CORPS                            2                      $11,242
 21   DEPARTMENT OF THE TREASURY             1                       $8,960
      NATIONAL AERONAUTICS AND SPACE
 22   ADMINISTRATION                         2                       $5,706
      DEPARTMENT OF HOUSING AND URBAN
 23   DEVELOPMENT                            1                       $2,447
 24   SMITHSONIAN INSTITUTION                1                       $2,185
 25   SMALL BUSINESS ADMINISTRATION          1                       $1,447
 26   ARCHITECT OF THE CAPITOL               1                         $302
      Total                                 244                  $1,940,729
                                                                Appendix H

Frequency of Injury by Body Part for the
1,795 Recipients Noted in the Master Earnings File
Comparison (illustrating percentage by body part)


                          Frequency of Injury by Body Part


                             Internal Organs
                                               Middle of Body
                                   1%
                                                    5%
           Injury Other
                7%
                                                    Head          Internal Organs
                                                    17%
                                                                  Middle of Body
        Back
        32%                                                       Head
                                                                  Legs
                                                                  Arms
                                                       Legs
                                                       16%        Back
                                   Arms                           Injury Other
                                   22%
